                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
                

                



                     Weaknesses in EPA’s
                     Management of the
                     Radiation Network System
                     Demand Attention
                     Report No. 12-P-0417                    April 19, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Richard Eyermann
                                                   Mike Davis
                                                   Jim Haller
                                                   Marcia Hirt-Reigeluth
                                                   Jennifer Hutkoff
                                                   Yeon Kim
                                                   Heather Layne


Abbreviations

CIPP          Critical Infrastructure and Key Resources Protection Plan
CO            Contracting officer
COR           Contracting officer representative
CPARS         Contractor Performance Assessment Reporting System
CPS           Contractor Performance System
EPA           U.S. Environmental Protection Agency
EPAAR         Environmental Protection Agency Acquisition Regulations
FAR           Federal Acquisition Regulation
GFP           Government-furnished property
MATS          Management Audit Tracking System
MPR           Monthly progress report
NAREL         National Air and Radiation Environmental Laboratory
NIH           National Institutes of Health
OAM           Office of Acquisition Management
OAR           Office of Air and Radiation
OIG           Office of Inspector General
ORIA          Office of Radiation and Indoor Air
PPIRS         Past Performance Information Retrieval System
QAPP          Quality Assurance Project Plan
RadNet        Radiation Network
SOW           Statement of work


Cover photo: Stationary RadNet monitor. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                                                                                                          12-P-0417
                        U.S. Environmental Protection Agency                                           April 19, 2012
                        Office of Inspector General


                        At a Glance
Why We Did This Review 	               Weaknesses in EPA’s Management of the
The U.S. Environmental
                                       Radiation Network System Demand Attention
Protection Agency (EPA) Office         What We Found
of Inspector General (OIG)
sought to determine whether EPA        Broken RadNet monitors and late filter changes impaired this critical
is following quality control           infrastructure asset. On March 11, 2011, at the time of the Japan nuclear
procedures to ensure that data         incident, 25 of the 124 installed RadNet monitors, or 20 percent, were out of
submitted from Radiation               service for an average of 130 days. The service contractor completed repairs
Network (RadNet) monitors              for all monitors by April 8, 2011. In addition, 6 of the 12 RadNet monitors
nationwide are reliable and            we sampled had gone over 8 weeks without a filter change, and 2 of those
accurate, and whether EPA              for over 300 days. Because EPA managed RadNet with lower than required
effectively implemented                priority, parts shortages and insufficient contract oversight contributed to
corrective actions in response to      extensive delays in fixing broken monitors. In addition, broken RadNet
the EPA OIG’s January 27, 2009,        monitors and relaxed quality controls contributed to the filters not being
audit report on RadNet.                changed timely. Out-of-service monitors and unchanged filters may reduce
                                       the quality and availability of critical data needed to assess radioactive
Background                             threats to public health and the environment.

EPA’s December 2004 Critical           EPA remains behind schedule for installing the RadNet monitors and did
Infrastructure and Key Resources       not fully resolve contracting issues identified in the OIG’s January 2009
Protection Plan identified RadNet      report. Until EPA improves contractor oversight, the Agency’s ability to use
monitors as critical infrastructure.   RadNet data to protect human health and the environment, and meet
The mission of RadNet is to            requirements established in the National Response Framework for Nuclear
monitor environmental                  Radiological Incidents, is potentially impaired.
radioactivity in the United States
to provide high-quality data for
assessing public exposure and          What We Recommend
environmental impacts resulting
from nuclear emergencies, and to       We recommend that the Assistant Administrator for Air and Radiation
provide baseline data during           establish and enforce expectations for RadNet operations readiness. We
routine conditions. RadNet             recommend improved planning and management of parts availability,
played a critical role in              monitoring of filter replacement and operators, and monitoring of the
monitoring radiation levels in the     installation of the remaining RadNet monitors. Further, we recommend that
United States during the March         the Assistant Administrator, in conjunction with the Assistant Administrator
2011 Japan nuclear incident.           for Administration and Resources Management, hold contractors
                                       accountable by establishing milestones, using incentives and disincentives,
                                       requiring contracting officers and contracting officers’ representatives to
For further information, contact       formally evaluate RadNet contractors annually, and ensure that the
our Office of Congressional and        Agency’s Management Audit Tracking System is accurate and current. The
Public Affairs at (202) 566-2391.      Agency concurred with the recommendations except for developing metrics
The full report is at:                 for evaluating frequency of filter changes and completing contractor
www.epa.gov/oig/reports/2012/          performance evaluations, which is considered unresolved. The Agency also
20120419-12-P-0417.pdf                 proposed revised language, which we incorporated where appropriate.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                             THE INSPECTOR GENERAL




                                         April 19, 2012

MEMORANDUM

SUBJECT:	 Weaknesses in EPA’s Management of the
          Radiation Network System Demand Attention
          Report No. 12-P-0417


FROM:	         Arthur A. Elkins, Jr.

TO:	           Gina McCarthy
               Assistant Administrator for Air and Radiation

               Craig E. Hooks
               Assistant Administrator for Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. Your response will be posted on the OIG’s public website, along
with our comments on your response. Your response should be provided in an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of
1973, as amended. If your response contains data that you do not want to be released to the
public, you should identify the data for redaction. You should include a corrective actions plan
for agreed-upon actions, including milestone dates. We have no objections to the further release
of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566- 0899 heist.melissa@epa.gov; or Mike Davis,
Acting Director for Efficiency Audits, at (513) 487-2363 or davis.michaeld@epa.gov.
Weaknesses in EPA’s Management of the                                                                                     12-P-0417
Radiation Network System Demand Attention


                                  Table of Contents 


Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Prior EPA OIG Reports................................................................................              4

                Noteworthy Achievements ...........................................................................                5     

                Scope and Methodology ..............................................................................               5     


   2	   EPA Not Managing RadNet as a High-Priority Program .................................                                       7


                Contract and QAPP Define Repair and Filter Change Time Frames .........                                            7

                One in Five RadNet Monitors Out of Service an Average of 130 Days .......                                          7

                Filters for RadNet Monitors Not Changed Timely ........................................                           10 

                Limited Resources and Competing Priorities Impacted 

                    RadNet Readiness .................................................................................            12 

                Conclusion ...................................................................................................    13 

                Recommendations ......................................................................................            14 

                Agency Response and OIG Evaluation .......................................................                        14


   3	   EPA Should Improve RadNet Contract Oversight...........................................                                   16


                Federal and EPA Guidance Define Contract Management 

                   Requirements .........................................................................................         16 

                Incentives/Disincentives Not Included in All RadNet Contracts...................                                  17 

                Installation of RadNet Monitors Behind Schedule .......................................                           19 

                Monthly Progress Reports Not Effectively Used to Manage 

                   RadNet Contracts ...................................................................................           21 

                Contractor Performance Evaluations Not Timely or Completed ..................                                     22 

                Conclusion ...................................................................................................    23 

                Recommendations ......................................................................................            24 

                Agency Response and OIG Evaluation .......................................................                        24 


        Status of Recommendations and Potential Monetary Benefits .....................                                           26 




Appendices
   A	   Analysis of Prior EPA OIG Report Recommendations ...................................                                      28 


   B	   Analysis of 25 Out-of-Service Monitors as of March 11, 2011— 

        Date of Japan Nuclear Incident ........................................................................                   30 



                                                          -continued-
Weaknesses in EPA’s Management of the                                                                                    12-P-0417
Radiation Network System Demand Attention



   C    Extensions to the Fixed Air Monitoring Stations Contract

        and EPA Compensation Received....................................................................                        31 


   D    Agency Response to Draft Report....................................................................                      32 


   E    Distribution .........................................................................................................   44

                                   Chapter 1

                                    Introduction
Purpose
            In January 2009, the Office of Inspector General (OIG) issued an audit
            report that contained recommendations for improving the management and
            oversight of the U.S. Environmental Protection Agency’s (EPA’s) Radiation
            Network (RadNet) system. The nature and importance of the prior report
            recommendations and the recent attention on RadNet due to the critical role
            it played in the United States during the March 2011 Japan nuclear incident
            warranted a follow-up audit. Our audit objectives were to determine:

               	 Whether EPA is following quality control procedures to ensure that
                  data submitted from the RadNet monitors nationwide are reliable
                  and accurate

               	 Whether EPA effectively implemented corrective actions in response
                  to our January 27, 2009, audit report, EPA Plans for Managing
                  Counter Terrorism/Emergency Response Equipment and Protecting
                  Critical Assets Not Fully Implemented

Background
            The Patriot Act of 2001 defined critical infrastructure as assets
            so vital to the United States that their incapacity or destruction
            would have a debilitating impact on public health or safety.
            Homeland Security Presidential Directive No. 7, December
            17, 2003, required federal agencies to identify, prioritize, and
            protect Critical Infrastructure and Key Resources Protection
            Plan (CIPP) assets. EPA’s December 2004 CIPP identified
            RadNet monitors as critical infrastructure. The June 2008
            Nuclear/Radiological Incident Annex to the National
            Response Framework lists EPA and RadNet as a key federal
            radiological resource and asset.

            EPA’s RadNet System

            RadNet, a national network of monitoring stations, provides
            real-time monitoring of environmental levels of radiation in
            the United States. Monitoring stations regularly collect air,
            precipitation, drinking water, and milk samples for analysis of
            radioactivity. RadNet has three objectives:                          Stationary RadNet
                                                                                 monitor. (EPA OIG
                                                                                 photo)


12-P-0417                                                                                            1
                         Provide data for nuclear emergency response assessments
                         Provide data on ambient levels of radiation in the environment for baseline
                          and trend analysis
                         Inform the general public and public officials about radiation levels

                 EPA’s RadNet system consists of 124 stationary (fixed) monitors1 and
                 40 deployable air monitors that can be sent to take readings anywhere in the
                 country (figure 1). Our audit focused on EPA’s stationary RadNet air monitoring
                 system.

                 Figure 1: Locations of RadNet monitors nationwide as of April 2011




                 Source: EPA Japan Nuclear Emergency: Radiation Monitoring website,
                 http://www.epa.gov/japan2011/rert/radnet-data-map.html/.




1
 Stationary monitors collect information on air particulates. When fully implemented, the RadNet system will
consist of 134 stationary monitors. The remaining 10 monitors are planned to be installed, by June 2012, in Boise
City, Idaho; Casper, Wyoming; Champaign, Illinois; Charleston, South Carolina; Great Falls, Montana; Greensboro,
North Carolina; LaCrosse, Wisconsin; Scranton, Pennsylvania; Shawano, Wisconsin; and St. George, Utah.


12-P-0417                                                                                                       2
                    RadNet monitors measure airborne radiation collected on filters 24 hours a day,
                    7 days a week, and submit data for analysis to the EPA National Air and Radiation
                    Environmental Laboratory (NAREL) in Montgomery, Alabama. NAREL is part of
                    the Office of Air and Radiation (OAR), Office of Radiation and Indoor Air
                    (ORIA). These data allow NAREL to identify normal background radiation levels
                    in an area. A computer continually reviews the real-time air monitoring data and, if
                    the results show an increase in radiation levels outside of the normal range, the
                    computer immediately alerts EPA laboratory staff so they can review the data to
                    ensure accuracy. Operators of the fixed monitors also send filters to NAREL for
                    further analysis. The detailed filter analysis allows NAREL to see the trace
                    amounts of radioactive material that the real-time air monitors do not pick up.

                    NAREL worked with the EPA Office of Acquisition Management (OAM) to
                    award the three contracts that are the subject of this review—one each for the
                    manufacture of stationary air monitors,2 repair and maintenance services, and
                    ordering of needed spare and repair parts. These contracts are crucial to the
                    success of the RadNet program. OAM awarded the three contracts from 2007 to
                    2010, and they have a total contract obligation value of over $8 million (table 1).
                    The contracts for fixed air monitoring stations and spare parts were awarded to
                    the same contractor due to the proprietary nature of those spare parts.

             Table 1: RadNet contracts covered by this review
                   RadNet                                                         Award          Total contract
                 contract no.               Purpose of contract                    date           obligations
               EP-W-07-076          Fixed air monitoring stations              09/28/2007           $5,326,210
               EP-D-08-068          Repair and maintenance services            05/05/2008             1,489,880
               EP-D-10-085          Spare parts                                09/21/2010             1,405,913
                                                                                         Total      $8,222,003
             Source: EPA Active Contract Listing and Financial Data Warehouse as of February 9, 2012.


                    Japan Nuclear Incident

                    On March 11, 2011, the magnitude 9.0 Tohoku earthquake in northern Japan
                    created a tsunami that damaged the Fukushima nuclear power plant. In response
                    to the Japan nuclear incident, EPA increased sampling frequency and analysis to
                    detect and measure radiation levels, and inform the public of any changes in those
                    levels. EPA also increased sampling frequency for the milk and drinking water
                    networks, and increased analysis frequency for all networks to detect and measure
                    radiation levels. On April 2, 2011, an EPA press release stated that several EPA
                    air monitors detected very low levels of radioactive material in the United States
                    consistent with estimates from the damaged nuclear reactors. EPA explained that
                    these detections were expected, and the levels detected were far below levels of
                    public health concern.


2
    OAM awarded earlier RadNet contracts; those contracts are not part of this review.


12-P-0417                                                                                                         3
            To provide additional 

            geographic coverage to 

            areas in close proximity 

                                             Since the events in Japan occurred, EPA’s website
            to the releases in Japan, 
      has had thousands of views and we have received
            EPA shipped deployable 
         many positive comments from the public on the
            monitors to islands in the
      information we have made available. The Agency
            Pacific, including Guam 
        will continue to provide [RadNet] monitoring
            and the Commonwealth 
           results to the public in a very open and transparent
            of the Northern Mariana 
        manner. While we do not expect radiation from the
            Islands, and to locations 
      damaged Japanese reactors to reach the United
            in the western United 
          States at harmful levels, I want to assure you that
            States, including Hawaii, 
      EPA will continue our coordination with our
            Idaho, and Alaska. 
             federal partners to monitor the air, milk,
                                             precipitation and drinking water for any changes,
                                             and we will continue our outreach to the public
            On April 12, 2011, the           and the elected officials to provide information on
            U.S. Senate Committee            our monitoring results.
            on Environment and
                                          Lisa Jackson, EPA Administrator, Testimony Before the
            Public Works held a           United States Senate, Committee on Environment and
            hearing, “Review of the       Public Works, April 12, 2011.
            Nuclear Emergency in
            Japan and Implications
            for the U.S.,” and the
            EPA Administrator testified on the systems EPA has in place to protect the
            American public and environment.

            On May 3, 2011, EPA announced that after a thorough data review showing
            declining radiation levels related to the Japan nuclear incident, it had returned to
            the routine RadNet sampling and analysis processes.

Prior EPA OIG Reports
            On April 26, 2006, the OIG issued Report No. 2006-P-00022, EPA Needs to
            Better Implement Plan for Protecting Critical Infrastructure and Key Resources
            Used to Respond to Terrorist Attacks and Disasters. We reported that EPA listed
            RadNet in the CIPP and prioritized it as the fourth-most-important item. We
            identified that the Agency had not completed five CIPP initiatives, including
            RadNet. We recommended that the Deputy Administrator establish program
            office accountability for implementing each CIPP initiative as well as milestones,
            with short- and long-term performance measures for monitoring the
            implementation of each CIPP initiative. The Agency agreed with the
            recommendations and established accountability with the Office of Solid Waste
            and Emergency Response for coordinating all activities related to the CIPP. EPA
            planned to begin the first phase of deployment for the fixed RadNet monitors in
            2006, with completion scheduled in fiscal year 2009.




12-P-0417                                                                                           4
            On January 27, 2009, the OIG issued Report No. 09-P-0087, EPA Plans for
            Managing Counter Terrorism/Emergency Response Equipment and Protecting
            Critical Assets Not Fully Implemented. We reported that EPA was behind
            schedule in implementing RadNet, encountered delays and problems with the
            administration of the contract for the monitors, and may need to modify installed
            monitors after completing tests of the design. We recommended that EPA monitor
            the RadNet contract, develop a schedule for addressing design concerns with the
            monitor, and oversee the implementation of RadNet against the planned schedule
            until completed. EPA agreed with the recommendations.

            An analysis of prior EPA OIG report recommendations is in appendix A.

Noteworthy Achievements
            EPA has made progress in implementing the RadNet CIPP initiative since the
            OIG’s 2006 and 2009 audit reports. As of May 2011, EPA had installed 124 of
            the 134 monitors it ordered, and it completed a test of the RadNet design. The test
            determined that a change to the installed monitors was not required.

Scope and Methodology
            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our review objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our audit objectives.

            We conducted the audit from May to December 2011. We visited OAM’s
            Headquarters Procurement Operations Division in Washington, DC; OAM’s
            Procurement Operations Division in Research Triangle Park, North Carolina; and
            NAREL in Montgomery, Alabama.

            We interviewed the directors for ORIA and NAREL. We interviewed contracting
            officers (COs) and the RadNet operations manager to follow up on prior report
            recommendations and agreed-to corrective actions. We conducted interviews with
            operators for 12 RadNet monitors to determine whether they followed quality
            control procedures to ensure that data submitted from the monitors were reliable.
            We selected a random sample of 12 monitors from the 124 installed to identify a
            population of monitors to analyze for frequency of filter changes and to identify
            which operators to interview.

            We reviewed prior audit reports, the EPA 2011–2015 Strategic Plan, OAR’s
            2011–2012 National Program Manager Guidance, and pertinent laws and
            regulations. We reviewed information in the Agency’s Management Audit
            Tracking System (MATS), and the CO and contracting officer representative


12-P-0417                                                                                     5
            (COR) files, to determine whether EPA implemented corrective actions to address
            the recommendations pertaining to RadNet in our 2009 audit report. We reviewed
            the 2010 and 2012 RadNet Quality Assurance Project Plans (QAPPs) to
            determine the quality control procedures EPA had to ensure that data submitted
            from the RadNet are reliable. We reviewed the fiscal years 2010 and 2011 Federal
            Managers’ Financial Integrity Act Annual Assurance Letters for EPA’s Office of
            Homeland Security (within the Office of the Administrator) and OAR to
            determine whether those two letters identified any weaknesses related to the
            RadNet program. The letters did not identify such weaknesses.




12-P-0417                                                                                  6
                                  Chapter 2

                 EPA Not Managing RadNet as a 

                     High-Priority Program 

            Broken RadNet monitors and late filter changes impaired this critical
            infrastructure asset. On March 11, 2011, at the time of the Japan nuclear
            incident, 25 of the 124 installed RadNet monitors, or 20 percent, were out of
            service for an average of 130 days. In addition, 6 of the 12 RadNet monitors
            we sampled (50 percent) had gone over 8 weeks without a filter change, and
            2 had gone unchanged for over 300 days because they were broken. Unless
            EPA grants an extension, the repair services contract requires a service
            contractor to fix broken monitors within 14 days of EPA’s notification that a
            monitor is out of service. The EPA 2010 QAPP required operators to change
            filters on fixed RadNet real-time monitors twice a week. Because EPA did
            not manage RadNet as a high-priority program, parts shortages and
            insufficient contract oversight contributed to the extensive delay in fixing
            broken monitors. Out-of-service monitors and unchanged filters may reduce
            the availability and quality of critical data needed to assess radioactive
            threats to public health and the environment.

Contract and QAAP Define Repair and Filter Change Time Frames
            EPA included terms and conditions in the RadNet repair and maintenance
            services contract to define the period of time for repair. In May 2008, EPA
            awarded a RadNet repair and maintenance service contract that requires the
            contractor to fix broken monitors within 14 days of being notified by the COR.
            EPA may permit an extension of this 14-day period for a specific repair for
            reasons including unavailability of government-furnished property (GFP),
            operator unavailability, and physical disruption of the site. EPA acquires the GFP
            from the contractor that was awarded the propriety spare parts contract.

            EPA’s 2010 QAPP states that RadNet air station operators collect air
            particulate filters twice a week and mail the filters via the U.S. Postal
            Service to NAREL for analysis. When elevated levels of radioactivity are
            anticipated or known to exist, EPA may request RadNet station operators to
            increase the sampling frequency and use priority shipping.

One in Five RadNet Monitors Out of Service an Average of 130 Days
            At the time of the Japan nuclear incident, 25 of the 124 installed monitors,
            or 20 percent, were out of service for an average of 130 days (appendix B
            and figure 2). The 25 out-of-service monitors were located throughout the
            country, except for the northwest portions of the United States (figure 3).


12-P-0417                                                                                    7
            Figure 2: Length of time RadNet monitors had been broken at time of the
            Japan nuclear incident




            Source: OIG analysis of 25 out-of-service monitors per information provided by EPA.


            Figure 3: Map of 25 monitors out of service at the time of the Japan
            nuclear incident




            Source: OIG-developed map using Geographic Information System and 

            Agency-provided information on broken monitors. 




            While the RadNet repair services contract requires the contractor to make the
            repair within 14 days of being notified by EPA, unless extended, EPA permitted
            9 of the 25 monitors to remain out of service for more than 140 days because it
            did not notify the contractor until parts were available. In addition, two monitors
            were out of service because no operator was available (table 2).




12-P-0417                                                                                         8
            Table 2: Monitors broken and out of service for more than 140 days
                                      Date out of        Date back in          Days out of
              Monitor location         service             service              service
             Harlingen, TX              01/28/10           04/01/11                 428
             Raleigh, NC                03/29/10           04/08/11                 375
             Fort Wayne, IN             05/02/10           03/25/11                 327
             Carlsbad, NM*              06/01/10           03/24/11                 296
             St. Louis, MO              06/09/10           03/30/11                 294
             Corpus Christi, TX*        10/01/10           03/21/11                 171
             Oklahoma City, OK          10/17/10           03/24/11                 158
             Burlington, VT             11/02/10           03/28/11                 146
             Fort Smith, AR             11/06/10           03/31/11                 145
             San Diego, CA              10/26/10           03/20/11                 145
             St. Paul, MN               11/08/10           03/31/11                 143
            *No operator available. 

            Source: OIG analysis of 25 out-of-service monitors per information provided by EPA. 


            EPA took an average of 106 days to notify the service contractor about the
            out-of-service monitors. EPA justified the delayed repairs and late
            notification as being due to the unavailability of GFP. EPA did not have the
            required parts to provide to the repair contractor, and would not for an
            extended period of time. Therefore, EPA did not notify the contractor that
            these monitors were in need of repair.

            EPA was not able to furnish the parts required for repair of 22 monitors in
            a timely manner, had not been able to recruit replacement volunteer
            operators for 2 monitors, and was able to troubleshoot the problem with
            the remaining monitor without needing to supply replacement parts.

            For 8 of the 25 monitors, the EPA COR took 120 to 421 days to notify the
            repair contractor (table 3).

            Table 3: Number of days for EPA to notify contractor of needed repairs
                                         Date out of         Notification         Days to
               Monitor location
                                          service               date             notification
             Harlingen, TX                 01/28/10            03/25/11              421
             Raleigh, NC                   03/29/10            03/26/11              362
             Fort Wayne, IN                05/02/10            03/20/11              322
             St. Louis, MO                 06/09/10            03/19/11              283
             Oklahoma City, OK             10/17/10            03/19/11              153
             Burlington, VT                11/02/10            03/20/11              138
             Fort Smith, AR                11/06/10            03/24/11              138
             San Diego, CA                 10/26/10            02/23/11              120
            Source: OIG analysis of eight out-of-service monitors per EPA information.



12-P-0417                                                                                           9
              The 25 out-of-service monitors received EPA’s priority attention only after the
              Japan nuclear emergency. The priority attention consisted of cannibalizing
              monitors under construction for their parts, which were used to repair broken
              monitors. By April 8, 2011, the service contractor had completed repairs on all
              monitors (figure 4).

               Figure 4: Timeline to fix the 25 monitors after the Japan nuclear incident




               Source: OIG analysis of 25 out-of-service monitors per information provided by EPA.


Filters for RadNet Monitors Not Changed Timely
              Operators are not changing filters for the RadNet monitors two times per week as
              required by the 2010 QAPP. We sampled 12 out of the 124 installed monitors for
              which we reviewed the frequency of filter changes for the 12-month period
              May 1, 2010–April 30, 2011 (table 4).

        Table 4: Filter changes on random sampling of 12 monitors, May 1, 2010–April 30, 2011

                                                        No. of filter                   Longest elapsed
                                  No. of filter        changes not                     time without filter
         Monitor location       changes made               made          % not made      change in days
         Salt Lake City, UT           61                     43             41.35%            129
         Riverside, CA                98                      6               5.77            N/A
         Montgomery, AL               103                     1                1              N/A
         Burlington, VT                3                    101              97.12            339
         Eureka, CA                   55                     49              47.12            N/A
         Tulsa, OK                    38                     66              63.46            152
         St. Louis, MO                 6                     98              94.23            309
         Richmond, VA                 90                     14              13.46             21
         Fort Worth, TX               65                    39               37.50             21
         Omaha, NE                    38                     66              63.46            147
         Houston, TX                  74                     30              28.85             79
         Toledo, OH                   97                      7               6.73            N/A
                                     Average filter changes not made        41.60%
        Source: OIG analysis of 12 random samples; filter change data provided by EPA.



12-P-0417                                                                                                    10
            Our review disclosed that:

                Seven of 12 monitors were broken for an extended period and thus did not
                 have filter changes or submit data for 21 to 339 days.
                For the 1-year time span, 42 percent of required filter changes did not occur
                 because of broken monitors or volunteer issues.
                Monitors located in Burlington, Vermont, and St. Louis, Missouri, had only
                 three and six filter changes for the 1-year period, respectively.
            Not all operators changed filters twice a week. One operator did not change filters
            for 309 days because the monitor was broken and unrepaired. Further, because
            operators are unpaid volunteers from a variety of federal/state/local agencies,
            universities, and colleges, RadNet filter changes may not be the top priority for all
            operators. Another operator did not change filters for 339 days because the monitor
            was broken at one time and the operator had National Guard duty at other times.
            EPA acknowledged these situations but did not take prompt action. Further,
            NAREL gave operators permission to wait up to 8 days between filter changes,
            despite the 2010 QAPP requirement to change the filters twice a week. Some
            operators requested and NAREL gave permission to change filters once a week.
            Failure to follow RadNet quality assurance requirements may adversely affect data
            completeness and potentially impairs RadNet’s ability to protect human health.

            The 2010 QAPP discussed the twice-per-week filter changes in three separates
            areas (table 5) and addressed specific elements of the planning and implementation
            of the real-time radiation monitors, including handling of filter samples collected at
            the air monitoring sites. EPA’s 2001 Requirements for Quality Assurance Project
            Plans, EPA QA/R-5, explained that QAPPs are important because they establish
            essential components of assuring the credibility and reliability of Agency data and
            information. The importance of the QAPP is also defined in the May 2000, EPA
            Quality Manual for Environmental Programs and states:

                   The QAPP is a critical planning document for any environmental
                   data operation since it documents how environmental data
                   operations are planned, implemented, documented, and assessed
                   during the life cycle of a program, project, or task. The ultimate
                   success of an environmental program or project depends on the
                   adequacy and sufficiency of the quality of the environmental data
                   collected and used in decision-making. This may depend
                   significantly on the adequacy of the QAPP and its effective
                   implementation.

            The EPA Quality Manual for Environmental Programs also explains that the
            QAPP describes the experimental design or data collection design for the project,
            including as appropriate the types and numbers of samples required, the design of
            the sampling network, sampling locations and frequencies, sample matrices,
            measurement parameters of interest, and the rationale for the design.


12-P-0417                                                                                     11
            In response to the draft report, the Agency stated that the frequency of filter
            changes was not a relevant metric for operational readiness, and stated that the
            twice weekly filter change referenced in the 2010 QAPP was not intended to be
            an operational requirement, but rather to provide consistency in throughput at
            NAREL’s analytical laboratory. In March 2012 the Agency revised the QAPP and
            removed all but one reference to the twice-per-week filter changes. (table 5)

            Table 5: Information from the 2010 and 2012 QAPPs on filter changes
                 Section                 QAPP August 6, 2010                         QAPP March 8, 2012
             8.5.2.2.1          Under routine circumstances, operators         Filters are directly counted for
                                send filters, along with field estimates, to   gross beta activity at NAREL.
                                NAREL twice weekly from each monitor.
             13.1.13, Step 13   Site operator conducts routine twice-          Site operator conducts routine
                                weekly filter changes, field analyses, and     filter changes and filter shipment
                                filter shipment to NAREL                       to NAREL.
             1.3.1.1.2          Current OMB [Office of Management              Current OMB reports for the
                                and Budget] reports for the ERAMS              ERAMS/RadNet air monitoring
                                [Environmental Radiation Ambient               network estimate operator
                                Monitoring System]/RadNet air                  expenditure of time to be
                                monitoring network estimate operator           75 person-hours per year. This
                                expenditure of time to be 75 person-           estimate is based on station
                                hours per year. This estimate is based         operators collecting air filters
                                on station operators collecting air filters    twice per week. However, less
                                twice per week.                                frequent filter changing is
                                                                               common for a variety of logistical
                                                                               reasons and does not affect
                                                                               quality of the data collected by the
                                                                               near-real-time gamma monitoring
                                                                               systems.
            Source: EPA’s 2010 and 2012 QAPPs.

            Since the 2012 QAPP does not specifically define how often filters should be
            changed, the Agency needs to define at a minimum how often filter changes are
            needed to provide consistency in throughput at NAREL’s analytical laboratory
            and also develop a matrix for this.

Limited Resources and Competing Priorities Impacted RadNet
Readiness
            Delayed contract awards and staffing issues negatively affected the full
            implementation of RadNet. The spare parts contract was awarded long after the
            warranty expired on the first installed monitor, and the RadNet program is run by
            a single operations manager who has no backup.

            EPA did not prioritize the award of contracts crucial to support the RadNet
            program. The first RadNet monitor, installed on April 20, 2006, had a 1-year
            manufacturer’s warranty. However, NAREL did not start the process for the parts
            contract until May 14, 2008, as part of its fiscal year 2010 Acquisition Forecast
            Plan, which was about 1 year after the manufacturer’s warranty expired on the
            first installed monitor. NAREL submitted the Procurement Initiation Notice on


12-P-0417                                                                                                         12
            July 8, 2009, to the Research Triangle Park Procurement Operations Division.
            Fourteen months after the notice, on September 21, 2010, EPA awarded the parts
            contract—over 3 years past the warranty expiration date of the first stationary
            monitor.

            The RadNet system is managed by the RadNet Real-Time Air Monitoring
            operations manager, NAREL. The RadNet operations manager had a
            variety of responsibilities that competed for prioritization, including but not
            limited to:

                  Network and site management for 124 monitors
                  COR for seven RadNet contracts plus another that is pending
                   (including the three contracts that are the subject of this review)
                  Quality assurance of RadNet fixed monitor operations

            Because of this workload, the operations manager had to make judgments
            about which issues required action on any particular day. Consequently, the
            operations manager often deferred activities related to monitor operations,
            especially those with longer-term impact, instead of treating those activities
            as a priority. For example, the RadNet operations manager explained that
            he delayed the following long-term tasks because of the immediate
            demands he had to address:

                  Maintaining operational status of monitors
                  Preparing standard operating procedures and quality control
                   documents
                  Identifying and preparing sites for installation of monitors
                  Implementing and conducting quality assurance activities

            The RadNet operations manager has no backup person. The NAREL acting
            director acknowledged that staffing was a critical area to be resolved, but
            did not present any specific plans for resolution.

Conclusion
            EPA’s RadNet program will remain vulnerable until it is managed with the
            urgency and priority that the Agency reports it to have to its mission, and that is
            also reflected in the National Response Framework for Nuclear Radiological
            Incidents. If RadNet is not managed as a high-priority program, EPA may not
            have the needed data before, during, and after a critical event such as the
            Japan nuclear incident. Such data are crucial to determine levels of airborne
            radioactivity that may negatively affect public health and the environment.




12-P-0417                                                                                         13
Recommendations
            We recommend that the Assistant Administrator for Air and Radiation:

               1.	 Establish and enforce written expectations for RadNet operational
                   readiness commensurate with its role in and importance to EPA’s mission.
                   Include, at a minimum:

                   a. Percentage of stationary monitors expected to be operational.
                   b. 	 Maximum length of time stationary monitors are permitted to be
                        nonoperational.
                   c. 	 Plan for temporarily backing up broken stationary monitors when
                        operational status is lower than required.
                   d. Availability of monitor operators.

               2.	 Implement metrics for RadNet operational readiness to be reviewed daily
                   by NAREL, and periodically by OAR (at least monthly) and by the
                   Deputy Administrator (as needed), to include, at a minimum:

                   a. Percentage of monitors operational.
                   b. 	 Length of time in nonoperational status.
                   c. 	 Need for backup monitors when operational status is too low.
                   d. Operator availability.

               3.	 Direct that NAREL improve planning and management for RadNet to
                   include, at a minimum:

                   a. 	 Provide for in-stock spare parts to assure operational status established
                        under recommendation 1.
                   b. 	 Implement measures to assure that operators are available.
                   c. 	 How often filter changes are needed to provide consistency in
                        throughput at NAREL’s analytical laboratory and implement a metric
                        for these filter changes.

Agency Response and OIG Evaluation
            The Agency concurred with the findings and all but one recommendation, and
            provided milestone dates for most of the recommendations. The Agency also
            proposed some revised language, which we incorporated where appropriate in the
            report. The Agency’s full response is in appendix D.

            The Agency concurred with recommendations 1.a. through 1.d., and stated that
            corrective action is expected to be completed by April 1, 2012. We agree with the
            Agency’s corrective actions planned for recommendations 1.a. through 1.d.




12-P-0417                                                                                      14
            The Agency concurred with recommendation 2.a. through 2.d. and stated that
            corrective action is expected to be completed by April 1, 2012. We agree with the
            corrective actions planned for recommendation 2.a through 2.d.

            The Agency did not agree with our draft report recommendation 2.e. and the need
            for a performance metric to monitor the frequency of filter changes. The Agency
            stated the twice weekly filter change referenced in the 2010 QAPP was not
            intended to be an operational requirement, but rather to provide consistency in
            throughput at NAREL’s analytical laboratory. In March 2012 the Agency revised
            the QAPP and removed all but one reference to the twice-per-week filter changes.
            Considering the changes in the 2012 QAPP, we modified and moved
            recommendation 2.e., to recommendation 3.c., which directs that NAREL
            improve planning and management for RadNet to include, at a minimum how
            often filter changes are needed to provide consistency in throughput at NAREL’s
            analytical laboratory and implement a metric for these filter changes, because we
            believe the Agency needs to define at a minimum, how often filter changes are
            needed to provide consistency in throughput at NAREL’s analytical laboratory.

            The Agency concurred with recommendation 3.a. and stated that corrective action
            was completed. We agree with the Agency’s corrective action plan for
            recommendation 3.a. and request that the Agency include the date corrective
            actions were completed, the inventory of available spare parts, the budget and
            future funding for spare parts, and the newly awarded repair contract and the
            statement of work, as soon as this information is available. Also, the Agency
            concurred with recommendation 3.b. and stated that corrective action is expected
            to be completed by April 1, 2012. We agree with the Agency’s corrective action
            for 3b.




12-P-0417                                                                                  15
                                  Chapter 3
                       EPA Should Improve
                     RadNet Contract Oversight
            EPA did not fully resolve contracting issues identified in the OIG’s January 2009
            report. We found that incentives and disincentives for contractors were not
            included in each of the three RadNet contracts covered by this review, monthly
            progress reports (MPRs) were not included in terms and conditions of all three
            contracts, and required contractor performance evaluations were not completed or
            were late. The OIG’s January 2009 report addressed the need to improve contract
            administration and accountability for the RadNet initiative. EPA concurred with
            the prior report recommendations and established corrective action plans to
            monitor and improve contractor performance and oversight issues. The report
            contained five recommendations, of which EPA has listed four in MATS as
            completed as of August 2011. However, OIG analysis demonstrated that EPA
            only completed one of the recommendations (appendix A). As a result, contractor
            performance issues remained because EPA did not implement prior report
            recommendations to hold contractors accountable. Until EPA corrects the
            shortfall in contract oversight, the ability of the RadNet to protect human health
            and the environment is potentially impaired.

Federal and EPA Guidance Define Contract Management
Requirements
            Federal and EPA regulation and guidance are available to assist EPA in managing
            contracts and holding contractors accountable:

               	 Federal Acquisition Regulation (FAR) 16.401—Incentive Contracts:
                  FAR 16.401 discusses the need to provide motivation (incentives) for a
                  contractor to do well. It states that incentive contracts are designed to
                  obtain specific acquisition objectives by including appropriate incentive
                  arrangements designed to (1) motivate contractor efforts that might not
                  otherwise be emphasized, and (2) discourage contractor inefficiency and
                  waste.

               	 FAR 16.403—Incentive Contracts: FAR 16.403 states a fixed-price
                  incentive contract is appropriate when the nature of the supplies or
                  services being acquired and other circumstances of the acquisition are
                  such that the contractor’s assumption of a degree of cost responsibility
                  will provide a positive profit incentive for effective cost control and
                  performance.




12-P-0417                                                                                     16
                      	 FAR 42.11—Surveillance Requirements: FAR 42.1104 states that the
                         extent of production surveillance is determined by the contract
                         administration office on the basis of degree of importance to the
                         government, contract requirements for reporting production progress and
                         performance, the contract performance schedule, the contractor’s history
                         of contract performance, and the contractor’s experience with the contract
                         supplies or services.

                      	 FAR 42.15—Contractor Performance Information: FAR 42.1502(c)
                         states that, for each contract and task/delivery order in excess of the
                         simplified acquisition threshold of $150,000, the CO shall annually
                         prepare an evaluation of the contractor’s performance.

                      	 Environmental Protection Agency Acquisition Regulations (EPAAR)
                         Deviation 1542.15 —Contractor Performance Information:3
                         Evaluation reports shall be submitted to the Defense Department’s Past
                         Performance Information Retrieval System (PPIRS) through the Web-
                         based Contractor Performance Assessment Reporting System (CPARS),
                         which has connectivity with PPIRS. CPARS replaced the previous
                         reporting system, the National Institutes of Health (NIH) Contractor
                         Performance System (CPS), on May 15, 2010. An evaluation covers each
                         12-month period after the effective date of the contract or order. EPA’s
                         Interim Policy Notice 10-03 required completion of evaluations within
                         90 business days from the date the CO initiates the evaluation.

Incentives/Disincentives Not Included in All RadNet Contracts
                  The fixed air monitoring stations contract was the only one of the three in our
                  review that contained an incentive. It was also the only one that included a
                  disincentive; however, we consider that disincentive to be ineffective (table 6).

                  Table 6: Incentives and disincentives in the three RadNet contracts under review
                                        Contract                          Incentive              Disincentive
                   Fixed air monitoring stations                    Yes                        Yes, ineffective
                                    4
                   Repair service                                   No                         No
                   Spare parts                                      No                         No
                  Source: OIG analysis.




3
  EPAAR 1542.15, Contractor Performance Information, superseded and rescinded OAM Interim Policy Notice
10-03, effective October 3, 2011.
4
  In the Agency response to the draft report, the Agency stated that 3 days prior to release of our draft report to OAR
and OAM, EP-D-I2-003 was awarded on December 12, 2011, for RadNet Air Monitor Maintenance. This contract
replaced EP-D-08-068 and does include disincentives for subpar performance as follows: a 5 percent reduction on
the invoiced labor amount for every 1 percent slippage from the 95 percent performance level.


12-P-0417                                                                                                           17
            The OIG’s January 2009 report recommended that the Agency maintain current
            incentives in the new RadNet contracts and seek opportunities to expand these,
            and include disincentives in future contracts of this type; i.e., when appropriate,
            obtain reasonable equitable adjustments to the contract as a remedy for subpar
            contractor performance. The Agency reported this recommendation as completed
            in MATS (appendix A, recommendation 2-1).

            Fixed Air Monitoring Stations Contract Did Not Include Effective
            Disincentive

            Of the three RadNet contracts, only the contract for fixed air monitoring stations
            contained incentives in the contract’s Quality Assurance Surveillance Plan, as
            encouraged by FAR 16.401 and 16.403. Under the plan, the contractor had the
            potential to earn an additional $500 to $1,000 for making warranty repairs earlier
            than the 30 days required by the contract.

            The performance standards in the Quality Assurance Surveillance Plan under the
            contract for fixed air monitoring stations listed a positive past performance
            evaluation as an incentive/disincentive. However, positive past performance
            evaluation is not a true incentive/disincentive, because performance evaluation is
            a FAR 42.15 requirement.

            Even though the OIG raised the issue of disincentives in its January 2009 report,
            EPA did not add to the contract disincentives if the contractor made warranty
            repairs after the 30-day requirement. EPA did not effectively use disincentives.
            Under Delivery Orders 1 and 2, EPA had to extend the contractor period of
            performance to allow the contractor more time to deliver the required monitors.
            As a result, EPA received compensation valued at approximately $41,830
            (appendix C). We do not consider this to be an effective disincentive because
            there were no enforceable contract requirements for EPA to receive compensation
            for untimely delivery.

            Planned Disincentives Not Included in Spare Parts Contract

            EPA did not include disincentives in the September 2010 RadNet spare parts
            contract. NAREL submitted a statement of work (SOW) for the spare parts
            contract to the OAM Procurement Operations Division in Research Triangle Park,
            which included discounts for untimely delivery. Specifically, the SOW included
            the following:

                  Items shall be delivered within 90 days of order. 

                  Any item delivered after 90 days of order shall be invoiced at the 

                   following discount: 

                        Delivery of any item between 91 and 120 days of order shall be
                          invoiced with a discount of 2 percent.




12-P-0417                                                                                    18
                               Delivery of any item after 120 days of order shall be invoiced with
                                a discount of one additional percentage (1 percent) per additional
                                30-day delay.

                However, none of the discounts outlined in the SOW were included in the
                awarded spare parts contract. The CO stated that the contract included terms for
                volume discounts, but the delivery discounts in the SOW were not included
                because the Procurement Operations Division decided to use a clause in the
                contract to allow the NAREL COR to determine delivery terms. However, the
                COR did not specify delivery terms to the contractor.

                On March 9, 2011, EPA modified the contract to approve the 2011 price list. This
                modification included time frames for delivery, but still did not include any of the
                initial discounts outlined in the SOW for untimely delivery. Without using the
                types of disincentives outlined in the initial SOW, EPA has no readily
                quantifiable measure to hold the contractor accountable for timely completion of
                contract activities.

Installation of RadNet Monitors Behind Schedule
                Contract oversight and contractor performance issues continue to hinder the
                delivery of RadNet monitors. As of November 30, 2011, EPA was 2 years and
                5 months behind its initial schedule to install monitors established in the fixed air
                monitoring stations contract terms and conditions (table 7).

 Table 7: Schedule of fixed air monitoring stations ordered and received
                                                                                EPA
                                            Required             Delivery     extended                Late
  Delivery  Date          Number Number      start of           order end      date for Date of last delivery
   Order   awarded        ordered delivered delivery              date         delivery  shipment timing
     1      10/01/2007       51          51      01/31/2008 12/31/2008 04/30/2009 05/19/2009               4.6
                                                                                                          months
     2      06/10/2008       32          22      01/01/2009 07/31/2009 11/30/2011 07/08/2010 2 years,
                                                                                             5 months
 Source: Delivery Orders 1 and 2, modifications, and OIG analysis.
 Note: This contract was for 83 monitors, split between two delivery orders. The other 51 monitors were covered
 under an earlier contract. Per contract terms, the delivery and the ship dates are the same.

                Delivery orders under the contract required the delivery of five monitoring
                stations per month beginning in January 2008. The OIG’s January 2009 report
                recommended that the Agency track the installation of the RadNet system against
                the planned schedule in the CIPP until completed. The Agency has not reported
                this recommendation as completed in MATS; OAR recorded in MATS that it
                expected to complete monitor installation in spring 2011 (appendix A,
                recommendation 2-5). However, because of challenges brought on by the Japan
                nuclear incident, OAR now expects to complete installation of the remaining
                10 monitors by June 2012.


12-P-0417                                                                                                         19
            EPA extended the period of performance for the delivery of the monitors to give
            the contractor additional time to deliver the required monitors. EPA extended
            Delivery Order 1 twice and Delivery Order 2 four times, with a final extension
            date of November 30, 2011, for Delivery Order 2.

            EPA (figure 5, left) was responsible for installation delays, and the contractor
            (figure 5, right) was responsible for delivery delays.

             Figure 5: Delays of delivery and installation of RadNet monitors




                Source: OIG analysis of Delivery Orders 1 and 2, and EPA-provided data on shipment of
                monitors.


            For EPA’s part, NAREL was required to have five locations available per month
            for the contractor to deliver and install RadNet monitors at the required rate of
            five per month. However, the RadNet operations manager stated that he was
            unable to complete all the requirements at a rate of five locations per month,
            which delayed the delivery and installation of some of the monitors. Delivery and
            installation of RadNet monitoring stations by the contractor to a site requires
            NAREL to have identified sites and operators within cities designated by EPA,
            and to arrange for site preparation. To select operators, NAREL works with the
            EPA regions and departments of health in the states to find a volunteer to operate
            the monitor (i.e., change filters and submit data). Operators and state offices are
            not compensated. Site preparation may include installing electrical outlets,
            constructing mounting platforms, or erecting security fencing.

            For the contractor’s part, a subcontractor in Italy was unable to timely submit two
            proprietary components—local processor units and detectors. Further, in March
            2011, EPA directed that components from the final 10 monitors under
            construction be used to fill a delivery order under the separate spare parts contract
            to provide parts needed to repair broken monitors that were already installed. This


12-P-0417                                                                                               20
                    diversion of components away from construction of the final 10 monitors in
                    Delivery Order 2 provided the spare parts contractor with enough equipment to
                    repair the 25 monitors that were not working at the time of the Japan nuclear
                    incident.

                    EPA is addressing the difficulty of acquiring proprietary spare parts with a foreign
                    subcontractor by exploring domestic options. The December 2011 SOW for the
                    newly awarded RadNet service contract5 contains language to address the
                    proprietary issue. For example, task 4 states:

                             The contractor shall identify components that have or may
                             develop limited availability or serviceability, and the contractor
                             shall identify more readily available, improved or more
                             serviceable components that may be potentially used to replace
                             original components.

Monthly Progress Reports Not Effectively Used to Manage RadNet
Contracts
                    EPA is not fully monitoring contractor performance through MPRs as required by
                    FAR 42.11. Two of three RadNet contracts required MPRs; however, EPA
                    required only one contractor to actually submit them (table 8).

                    Table 8: MPR requirements in the three RadNet contracts under review
                                      Contract                                 MPR status
                     Fixed air monitoring stations                  Required
                     Spare parts                                    Not required
                     Repair service                                 Required, but not enforced
                    Source: OIG analysis.

                    The OIG’s January 2009 report recommended that the Agency use MPRs to
                    monitor actual contractor performance against stated goals. The Agency reported
                    this recommendation as completed in MATS (appendix A, recommendation 2-2).

                    The fixed air monitoring stations contract required the contractor to provide
                    MPRs. NAREL received them as required, and they contained general
                    information on contractor performance.

                    The spare parts contract did not include a requirement for MPRs; therefore, the
                    contractor was not submitting them. Given this contractor’s history of untimely
                    delivery under the fixed air monitoring stations contract, EPA should have been
                    monitoring the contractor’s performance through MPRs.



5
    In the Agency response to the draft report, the Agency stated that the contract was awarded in December 2011.


12-P-0417                                                                                                           21
                 The repair services contract included the following MPR requirement: “within the
                 seven days of the end of each month, the Contractor shall provide a written report
                 to the COR describing work performed during the month.” However, the Agency
                 did not require MPRs from the contractor. The COR stated that he required a
                 repair report after each repair made, but did not require MPRs. As a result, EPA is
                 not getting updated contractor activity as required, and documented contractor
                 performance information is not available for use in contractor performance
                 evaluations.

Contractor Performance Evaluations Not Timely or Completed
                 As of October 12, 2011, EPA had not timely completed four of five required
                 contractor performance evaluations for the RadNet contractors. The OIG’s
                 January 2009 report recommended that the CO and COR formally evaluate the
                 fixed air monitoring station contractor’s performance on an annual basis and enter
                 past performance information into the NIH CPS under the expired and current
                 contract. The Agency reported this recommendation as completed in MATS
                 (appendix A, recommendation 2-3).

                 To ensure compliance with FAR 42.15, COs were required to include EPAAR
                 Clause 1552.209-76 in their contracts, which requires annual contractor
                 performance evaluations. Effective May 15, 2010, EPAAR Deviation 1542.15
                 replaced EPAAR 1509.170, to require the entry of the contractor evaluations into
                 PPIRS instead of NIH CPS. Contractor performance evaluations in PPIRS are
                 available to all federal contracting offices nationwide.

                 Contractor past performance is one of many factors to consider when assessing
                 whether contractors are likely to be successful in controlling contract costs and
                 meeting contract expectations. When EPA documents evaluations in an untimely
                 manner or not at all, selection teams within EPA and at other federal agencies do
                 not have current contractor evaluation information to consider when making new
                 contract awards.

                 As of October 12, 2011, EPA should have performed five contractor performance
                 evaluations: three for the fixed air monitoring stations contract and two for the
                 repair services contract.6 However, only one for the fixed air monitoring stations
                 contract was completed (table 9).




6
 The spare parts contractor performance evaluation was not due until after our review period ended. The contract
was awarded in September 2010; the evaluation period covers 1 year and is due 90 days after the evaluation period
ends.


12-P-0417                                                                                                       22
  Table 9: Timeliness of contractor performance evaluations
                                                                                                       Days past
                                                                                                        due as of
      Contract             Required period       Date due      Completed        Period covered         10/12/2011
      EP-W-07-076        09/28/07–09/27/08        02/12/09      01/30/09     09/27/07–12/30/08a            N/A
      Fixed Air          09/28/08–09/27/09        02/11/10          No                 N/A                 420
      Monitoring
      Stations           09/28/09–09/27/10        02/13/11          No                 N/A                 168
      EP-D-08-068        05/12/08–05/11/09        09/24/09          No                 N/A                 513
      Repair Services    05/12/08–05/11/10        09/24/10          No                 N/A                 262
 Source: OIG analysis of contractor performance evaluations as of October 12, 2011.
 a	
      The initial evaluation improperly covered 15 months; the regulation requires the evaluation to cover a maximum
      period of 12 months.


                   The CO for the fixed air monitoring stations contract stated that conducting the
                   contractor evaluation was not a priority. Further, during the transition from the
                   NIH CPS system to CPARS/PPIRS, the COs had only limited access to CPARS,
                   yet were required to enter more data than was previously required.

                   EPA conducted none of the required evaluations for the repair services contract,
                   and the requirements for evaluations were not included in the terms and
                   conditions of the contract. The CO stated that he would conduct the evaluation on
                   close-out of the contract. In May 2009, the COR reminded the CO to complete the
                   required performance evaluation. However, as of October 12, 2011, none of the
                   required performance evaluations had been conducted.

Conclusion
                   OAM and OAR did not adequately oversee the three RadNet contracts we
                   reviewed and did not fully use contract requirements, including using contract
                   incentives and disincentives, MPRs, and annual performance evaluations, to hold
                   contractors accountable. As a result, contract issues raised in our January 2009
                   report continue to exist because EPA believed it could oversee and hold
                   contractors accountable without them. EPA should implement recommended
                   actions from this report to hold RadNet contractors accountable. Doing so will
                   help ensure that EPA’s network of monitors is fully installed and operational so it
                   can meet requirements established in the National Response Framework for
                   Nuclear Radiological Incidents.




12-P-0417                                                                                                         23
Recommendations
            We recommend that the Assistant Administrator for Air and Radiation, in
            conjunction with the Assistant Administrator for Administration and Resources
            Management:

               4.	 Require follow-on RadNet contracts to include incentives/disincentives
                   and a requirement for MPRs.

               5.	 Require the CO and COR to formally evaluate RadNet contractors’
                   performance on an annual basis and enter information into PPIRS through
                   CPARS.

               6.	 Determine whether domestic contract options are available for crucial
                   repair parts that are identified as only being available from a foreign
                   subcontractor.

               7.	 Review the information in MATS for the prior audit and ensure it is
                   accurate and current.

            We recommend that the Assistant Administrator for Air and Radiation:

               8.	 Track the installation of the RadNet monitors against the revised schedule
                   and use the contract requirements in recommendations 4 and 5 to hold the
                   contractor accountable.

Agency Response and OIG Evaluation
            The Agency generally concurred with the findings and recommendations, and
            provided milestone dates for most of the proposed corrective actions. The Agency
            also proposed some revised language, which we incorporated where appropriate
            in the report. The Agency’s full response is in appendix D.

            The Agency partially concurred with recommendation 4 to require that RadNet
            contracts include incentives/disincentives and require MPRs for follow-on
            contracts, but not for existing contracts. We agree with the Agency corrective
            action for recommendation 4 and have revised the recommendation. We request
            that the Agency provide the awarded contract and statement of work for contract
            EP-D-12-003 and the follow-on contract EP-D-10-0085 as soon as the
            information becomes a available.

            The Agency partially agreed with recommendation 5 to require the CO and COR
            to formally evaluate RadNet contractors’ performance on an annual basis. The
            Agency stated that it will track and report timely completion of contractor
            performance evaluations under a Balanced Scorecard Internal Business
            Performance Measure and that new and/or ongoing contracts will receive priority


12-P-0417                                                                                    24
            for completing past performance reporting over expired contracts. The Agency
            further stated that a target of not less than 90 percent of past performance
            evaluations is to be completed in CPARS and contractor performance evaluations
            will be brought up to date as applicable. We continue to recommend that EPA
            formally evaluate RadNet contractors’ performance, even if the contract has
            expired, and enter information into PPIRS through CPARS. FAR does not make
            exceptions for contractor evaluation based on whether contracts are active or
            expired. We request that the Agency include a date for doing so in the 90-day
            response to the final report.

            The Agency agreed with recommendation 6 and stated that it is conducting
            additional market research in accordance with FAR Part 10 to identify potential
            domestic sources prior to the re-compete of the spare parts contract. This contract
            is anticipated to be awarded prior to the end of fiscal year 2012. We agree with
            the Agency corrective action for recommendation 6.

            The Agency agreed with recommendation 7 and provided the status of
            recommendations from OIG Report No. 09-P-0087. We agree with the Agency
            corrective action for recommendation 7 and request that the Agency include
            information on the finalized February and April 2012 performance evaluations
            under contract EP-W-07-076 in the 90-day response to the final report.

            The Agency concurred with recommendation 8 and stated that the COR is
            working with the CO to enforce the terms and conditions of the contract including
            receipt of consideration for late deliveries. We agree with the Agency corrective
            plan for recommendation 8. However, since the expected completion date of
            installation of monitors is now June 2012, we request that the Agency include
            information in the 90-day response to the final report on any consideration the
            Agency received for the additional delayed delivery of the monitors.




12-P-0417                                                                                    25
                               Status of Recommendations and
                                 Potential Monetary Benefits
                                                                                                                         POTENTIAL MONETARY
                                               RECOMMENDATIONS                                                             BENEFIT (in $000s)

                                                                                                             Planned
Rec.   Page                                                                                                 Completion   Claimed     Agreed-To
No.     No.                             Subject                         Status1      Action Official           Date      Amount       Amount

 1      14    Establish and enforce written expectations for RadNet       O       Assistant Administrator    04/01/12
              operational readiness commensurate with its role and                 for Air and Radiation
              importance to EPA’s mission. Include, at a minimum:

                a. Percentage of stationary monitors expected to be
                   operational.

                b. Maximum length of time stationary monitors are
                   permitted to be nonoperational.

                c. Plan for temporarily backing up broken stationary
                   monitors when operational status is lower than
                   required.

                d. Availability of monitor operators.

 2      14    Implement metrics for RadNet operational readiness to       O       Assistant Administrator    04/01/12
              be reviewed daily by NAREL, and periodically by OAR                  for Air and Radiation
              (at least monthly) and by the Deputy Administrator
              (as needed), to include, at a minimum:

                 a. Percentage of monitors operational.

                 b. Length of time in nonoperational status.

                 c. Need for backup monitors when operational status
                    is too low.

                 d. Operator availability.

 3      14    Direct that NAREL improve planning and management                   Assistant Administrator
              for RadNet to include, at a minimum:                                 for Air and Radiation
                a. Provide for in-stock spare parts to assure             O                                  04/09/12
                   operational status established under
                   recommendation 1.
                b. Implement measures to assure that operators are        O                                  04/01/12
                   available.

                c. How often filter changes are needed to provide         U
                   consistency in throughput at NAREL’s analytical
                   laboratory and implement a metric for these filter
                   changes.

 4      24    Require follow-on RadNet contracts to include               O       Assistant Administrator    9/30/12
              incentives/disincentives and a requirement for MPRs.                 for Air and Radiation,
                                                                                  in conjunction with the
                                                                                  Assistant Administrator
                                                                                  for Administration and
                                                                                         Resources
                                                                                        Management




12-P-0417                                                                                                                                  26
                                                                                                                                      POTENTIAL MONETARY
                                                       RECOMMENDATIONS                                                                  BENEFIT (in $000s)

                                                                                                                          Planned
Rec.        Page                                                                                                         Completion   Claimed     Agreed-To
No.          No.                              Subject                                Status1      Action Official           Date      Amount       Amount

    5         24    Require the CO and COR to formally evaluate RadNet                 U       Assistant Administrator
                    contractors’ performance on an annual basis and enter                       for Air and Radiation,
                    information into PPIRS through CPARS.                                      in conjunction with the
                                                                                               Assistant Administrator
                                                                                               for Administration and
                                                                                                      Resources
                                                                                                     Management

    6         24    Determine whether domestic contract options are                    O       Assistant Administrator    09/30/12
                    available for crucial repair parts that are identified as only              for Air and Radiation,
                    being available from a foreign subcontractor.                              in conjunction with the
                                                                                               Assistant Administrator
                                                                                               for Administration and
                                                                                                      Resources
                                                                                                     Management

    7         24    Review the information in MATS for the prior audit and             O       Assistant Administrator    06/30/12
                    ensure it is accurate and current.                                          for Air and Radiation,
                                                                                               in conjunction with the
                                                                                               Assistant Administrator
                                                                                               for Administration and
                                                                                                      Resources
                                                                                                     Management

    8         24    Track the installation of the RadNet monitors against the          O       Assistant Administrator    06/30/12
                    revised schedule and use contract requirements in                           for Air and Radiation
                    recommendations 4 and 5 to hold the contractor
                    accountable.




1       O = recommendation is open with agreed-to corrective actions pending
        C = recommendation is closed with all agreed-to actions completed
        U = recommendation is unresolved with resolution efforts in progress




12-P-0417                                                                                                                                               27
                                                                                                     Appendix A

       Analysis of Prior EPA OIG Report Recommendations

                                                          Information from MATS
                                                                                                        OIG
#           OIG recommendations              Completed                Actions taken                   analysis

2-1     Maintain current incentives in the   2009-01-30    The COR is evaluating contractor          Not complete
        new RadNet contract and seek                       performance on a monthly basis for
        opportunities to expand these                      potential subpar performance by
        and include disincentives in                       methods described in 2-2. If subpar
        future contracts of this type.                     performance is identified, the CO will
        When appropriate, obtain                           seek reasonable equitable
        reasonable equitable                               adjustment to the contract as a
        adjustments to the contract as a                   remedy.
        remedy for subpar contractor
        performance.

2-2     Use the monthly progress             2009-01-30    The COR is conducting weekly              Not complete
        reports to monitor actual                          scheduled telephone meetings and
        contractor performance against                     will discuss any discrepancies
        stated goals.                                      between actual performance and
                                                           stated goals with the contractor.
                                                           These discrepancies will be reported
                                                           to the CO.

                                                           The COR is receiving monthly
                                                           progress reports with clear
                                                           description of contracted and actual
                                                           delivery dates.

2-3     Require the CO and COR to            2008-04-24    We completed the contractor               Not complete
        formally evaluate the                              performance evaluation for expired
        contractor’s performance on an                     contract and delivery order and
        annual basis and enter past                        submitted it to the CO on April 24,
        performance information into the                   2008, for entry into NIH's Contractor
        National Institutes of Health's                    Performance System.
        (NIH’s) Contractor Performance
        System under the expired and
        current contract.

                                             2009-01-30    Contractor performance evaluation
                                                           for the current contract and its first
                                                           delivery order is currently in progress
                                                           and we will submit it to the CO for
                                                           entry into NIH's system by January
                                                           30, 2009 (30 days after delivery order
                                                           due date)

2-4     Establish a plan, with milestone     2009-07-30    Issue report with evaluation of test       Complete
        dates, for completing the SAB                      data and recommendations on
        recommended testing and, if                        design changes. The report did not
        needed, develop and implement                      recommend any design changes.
        a plan for making design
        improvements.




      12-P-0417                                                                                                     28
                                                      Information from MATS
                                                                                                     OIG
 #           OIG recommendations          Completed                Actions taken                   analysis

 2-5     Monitor the upgrade of the          Not       OAR originally expected to complete       Not completed
         RadNet system against the        completed    the installation of monitors in the
         planned schedule in the CIPP                  spring 2011. However, because of
         until completed.                              challenges brought on by the Japan
                                                       incident, OAR now expects to
                                                       complete installation of the monitors
                                                       by the end of 2011. The network will
                                                       include a total of 134 monitors. The
                                                       reduction in the total number of
                                                       monitors purchased is due to budget
                                                       reductions as well as meeting our
                                                       long-term performance target of
                                                       monitors within the 100 most
                                                       populous cities. In addition, with
                                                       134 monitors we also meet our long-
                                                       term goal of population coverage
                                                       within 25 miles of a monitor (55%).

                                                       Final corrective action for this review
                                                       will be completed by September 30,
                                                       2012.
Source: EPA-reported information from MATS.




       12-P-0417                                                                                                 29
                                                                                                               Appendix B

            Analysis of 25 Out-of-Service Monitors as of
           March 11, 2011—Date of Japan Nuclear Incident
                                                                                                                  Days
 Monitor                          Date out   Notification    Days to    Date back                                 out of
  No.           Monitor location of service      datea    notification   in service                              service
                       EPA was unable to provide government-furnished parts
      1         Harlingen, TX             01/28/10          03/25/11              421            04/01/11          428
      2         Raleigh, NC               03/29/10          03/26/11              362            04/08/11          375
      3         Fort Wayne, IN            05/02/10          03/20/11              322            03/25/11          327
      4         St. Louis, MO             06/09/10          03/19/11              283            03/30/11          294
      5         Oklahoma City, OK         10/17/10          03/19/11              153            03/24/11          158
      6         Burlington, VT            11/02/10          03/20/11              138            03/28/11          146
      7         Fort Smith, AR            11/06/10          03/24/11              138            03/31/11          145
      8         San Diego, CA             10/26/10          02/23/11              120            03/20/11          145
      9         St. Paul, MN              11/08/10          01/12/11               65            03/31/11          143
      10        Philadelphia, PA          12/28/10          01/12/11               15            03/14/11           76
      11        Hartford, CT              12/29/10          01/13/11               15            03/11/11           72
      12        Lubbock, TX               01/22/11          02/23/11               32            03/30/11           67
      13        Syracuse, NY              01/23/11          03/20/11               56            03/18/11           54
      14        Chicago, IL               02/02/11          03/20/11               46            03/22/11           48
      15        Milwaukee, WI             02/05/11          03/20/11               43            03/24/11           47
      16        El Paso, TX               02/09/11          02/23/11               14            03/28/11           47
      17        Phoenix, AZ               02/11/11          02/23/11               12            03/24/11           41
      18        Buffalo, NY               02/19/11          03/25/11               34            03/30/11           39
      19        Fontana, CA               02/11/11          02/23/11               12            03/21/11           38
      20        Reno, NV                  02/19/11          03/19/11               28            03/24/11           33
      21        Memphis, TN               03/05/11          03/25/11               20            03/31/11           26
                                                                    b
      22        Laredo, TX                03/04/11            N/A                   -            03/15/11           11
                                                      No operator
      23        Carlsbad, NM             06/01/10              N/A                N/A            03/24/11          296
      24        Corpus Christi,          10/01/10              N/A                N/A            03/21/11          171
                TX
A definite "out-of-service" date not easily defined; monitor running erratically/intermittently
      25        Yuma, AZ                 02/25/11           02/23/11c              -2            03/17/11           20
 Average days to notify service contractor:                                       106
 Average days out of service:                                                                                      130
Source: OIG analysis of 25 out-of-service monitors per information provided by EPA.
  a
      Date that EPA notified the contractor that the monitor was out of service.
  b
      No notification went out. On March 4, 2011, the operations manager and the operator began troubleshooting the problem,
      which resulted in the return to service on March 15, 2011.
  c
      EPA notified the contractor by phone 2 days earlier than the officially recorded out-of-service date.




12-P-0417                                                                                                                      30
                                                                                                      Appendix C

         Extensions to the Fixed Air Monitoring Stations
           Contract and EPA Compensation Received

                Extended
  Modifi-        date for                                                Value of
  cation        delivery of                                              compen-          Actual compensation
   No.           monitor              Purpose of extension                sation                received
                      Delivery Order 1—period of performance: 10/01/07 to 12/31/08
                              $3,011,902 paid to contractor as of 09/01/2011
     2         02/27/2009        Delivery and installation of            $14,200        Upgrade to front end
                                 monitors                                               software
     3         04/30/2009        Delivery and installation of               N/A         Warranties for nine
                                 monitors                                               monitors extended from
                                                                                        12 months to18 months
     4         04/30/2009        Extend the date for completion          $14,416        Provide two MAB units
                                 of warranty repairs for five                           and a 12-hour "test run"
                                 defective monitors                                     for each new monitor
                      Delivery Order 2—period of performance: 01/01/09 to 07/31/09
                              $1,457,804 paid to contractor as of 09/01/2011
     1         10/30/2009        Delivery delays from a                  $13,187        Repair/replacement of the
                                 subcontractor of LPUs and                              gamma detector of the
                                 detectors                                              monitor located at NAREL
     3         10/30/2010        EPA unable to provide all                  N/A                      N/A
                                 delivery addresses to the
                                 contractor
     4         04/30/2011        Excusable delays clause—                   N/A                      N/A
                                 fire destroyed a subcontractor
                                 facility
     5         11/30/2011        Provide time for the contractor            N/A                      N/A
                                 to reconstruct the final
                                 10 monitors
                           Total EPA compensation received               $41,803
Source: Modifications to Delivery Orders 1 and 2 of the fixed air monitoring stations contract and OIG analysis.




12-P-0417                                                                                                          31
                                                                                      Appendix D


                   Agency Response to Draft Report




                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                                   WASHINGTON, D.C. 20460

                                         February 3, 2012
MEMORANDUM

SUBJECT:       Response to OIG Draft Project Report No. OA-FY11-0184

FROM:          Gina McCarthy, Assistant Administrator
               Office of Air and Radiation

               Craig Hooks, Assistant Administrator
               Office of Administration and Resource Management

TO:            Melissa M. Heist, Assistant Inspector General for Audit
               Office of the Inspector General

This memorandum is in response to the Office of Inspector General’s (OIG’s) request for
comments on the draft project report dated December 15, 2011: Weaknesses in EPA’s
Management of the Radiation Network System Demand Attention.

As requested by the OIG, the Office of Air and Radiation (OAR) and the Office of
Administration and Resource Management (OARM) and transmit the Agency’s consolidated
response to this report as an attachment to this memorandum.

While we agree with most of the proposed recommendations, we have identified some revisions
in the draft report, as well as some suggested language to assist the OIG in their final report. Per
your request, we are also providing planned completion dates for all agreed-to recommendations.

 Please feel free contact us directly, or your staff may contact Jonathan Edwards, at (202) 343-
9437, if you have any questions.


Attachment

cc: Mike Davis



12-P-0417                                                                                          32
            RESPONSE TO OIG DRAFT REPORT (Project No. OA-FY11-0184)

This response is organized into two main sections. The first section combines all of the draft
report’s recommendations and related responses. The second section provides the EPA’s other
comments which focus largely on contract matters, sampling frequency and filter changes and
their relationship to data quality, and the RadNet’s Quality Assurance Manual and Quality
Assurance Project Plan. In many cases, the EPA comments are accompanied by suggested
revisions to clarify perceived misunderstandings or to correct inaccuracies. The EPA is
particularly concerned about the statements concerning “relaxed quality controls” since the EPA
contends that this is inaccurate, as described in detail in the appropriate places in this response.
For convenience, red text is used to indicate some suggested revisions.

                              Responses to OIG Recommendations

Recommendation 1a: Establish and enforce written expectations for RadNet operational
readiness commensurate with its role in and importance to EPA’s mission. Include, at a
minimum: Percentage of stationary monitors expected to be operational.

       Response: The EPA concurs and has been reevaluating its current operational goal, and
       will finalize this effort by April 1, 2012.

Recommendation 1b: Establish and enforce written expectations for RadNet operational
readiness commensurate with its role in and importance to EPA’s mission. Include, at a
minimum: Maximum length of time stationary monitors are permitted to be nonoperational.

       Response: EPA concurs and has established a maximum length of time for RadNet fixed
       monitors to be nonoperational before reporting to ORIA and OAR management, along
       with a process for evaluating and reporting the circumstances associated with the
       nonoperational status. The reporting requirement will begin April 1, 2012.

Recommendation 1c: Establish and enforce written expectations for RadNet operational
readiness commensurate with its role in and importance to EPA’s mission. Include, at a
minimum: Plan for temporarily backing up broken stationary monitors when operational status
is lower than required.

       Response: EPA concurs and has evaluated various options for backing up broken
       stationary monitors, and will complete the written documentation and plan by April 1,
       2012.

Recommendation 1d: Establish and enforce written expectations for RadNet operational
readiness commensurate with its role in and importance to EPA’s mission. Include, at a
minimum: Availability of monitor operators.

       Response: EPA concurs with the importance of monitor operator availability and will
       finalize written plans for maximizing operator availability by April 1, 2012. However,
       EPA cannot assign volunteers or enforce expectations upon them. Instead, EPA seeks



12-P-0417                                                                                         33
volunteers, without compensation, for their time and effort. RadNet personnel work closely with
their partners, particularly the EPA regions, to do their best in recruiting volunteer operators.
When a suitable volunteer operator is identified, EPA also requests a backup volunteer who
works with the primary operator to maximize operator availability. Most locations have a backup
operator identified and fully trained in all aspects of monitor operations. Once EPA finds an
operator, the RadNet volunteer coordinator provides information to them routinely and is in
frequent contact by phone. EPA also provides recognition, such as letters of appreciation to their
supervisors, for their service in an effort to maintain a good relationship with our volunteers. The
response to recommendation 2d contains provisions for reporting to senior EPA management
when operators are unavailable for an extended period of time.

Recommendation 2a: Implement metrics for RadNet operational readiness to be reviewed daily
by NAREL, and periodically by OAR (at least monthly) and by the Deputy Administrator (at least
quarterly), to include, at a minimum: Percentage of monitors operational.

       Response: EPA concurs with the importance of maintaining operational readiness
       metrics. NAREL will continue to monitor, measure and review RadNet operational
       readiness every business day. The percentage of operating monitors will be included in
       written reports, developed using the following process:
            weekly reports on metrics for ORIA;
            monthly status summary reports for review by ORIA and OAR management; and
            OAR management will advise the Deputy Administrator, when deemed
               appropriate,

       This reporting process will be established and begin April 1, 2012.

Recommendation 2b: Implement metrics for RadNet operational readiness to be reviewed
daily by NAREL, and periodically by OAR (at least monthly) and by the Deputy Administrator
(at least quarterly), to include, at a minimum: Length of time in nonoperational status.

       Response: EPA concurs with the importance of maintaining operational readiness
       metrics. The reports described in response to recommendation 2a will include a list of the
       operational status of all monitors, along with the repair status and anticipated date for
       non-operational monitors to return to service. This reporting process will be established
       and begin April 1, 2012.

Recommendation 2c: Implement metrics for RadNet operational readiness to be reviewed daily
by NAREL, and periodically by OAR (at least monthly) and by the Deputy Administrator (at least
quarterly), to include, at a minimum: Need for backup monitors when operational status is too
low.
       Response: EPA concurs with the importance of maintaining operational readiness. This
       expectation is being met through the repair of out-of-service monitors. The reports
       described in response to recommendation 2a will be informed by the evaluation of
       options for backing up broken monitors, as described in response to recommendation 1c.
       This reporting process will be established and begin April 1, 2012.




12-P-0417                                                                                        34
Recommendation 2d: Implement metrics for RadNet operational readiness to be reviewed
daily by NAREL, and periodically by OAR (at least monthly) and by the Deputy Administrator
(at least quarterly), to include, at a minimum: Operator availability.

       Response: EPA concurs with the importance of maintaining operational readiness
       metrics. This information will be included in the monthly reports described in 2a. This
       information will also be forwarded to the appropriate EPA Regional Radiation Managers.
       This process will be established and begin April 1, 2012.


Recommendation 2e: Implement metrics for RadNet operational readiness to be reviewed daily
by NAREL, and periodically by OAR (at least monthly) and by the Deputy Administrator (at least
quarterly), to include, at a minimum: Frequency of filter changes per the QAM and QAPP.

       Response: EPA concurs with the importance of operational readiness metrics. However,
       the frequency of filter changes is not a relevant metric for operational readiness. For
       clarification, the Quality Assurance Manual (QAM) described in the draft OIG report
       does not apply to the RadNet fixed real-time monitors; it explicitly excludes them, and
       notes that the routine operations Quality Assurance Project Plan (QAPP) for RadNet real-
       time monitors is the applicable quality document. Also for clarification, the twice weekly
       filter change references in this QAPP are intended to provide consistency in throughput at
       NAREL’s analytical laboratory, not as an operational requirement. The QAPP for
       RadNet real-time monitors has been edited to clarify this intent.

Recommendation 3a: Direct that NAREL improve planning and management for RadNet to
include, at a minimum: Provide for in-stock spare parts to assure operational status established
under recommendation 1.

       Response: EPA concurs and the corrective action has been completed. The spare parts
       contract is now in place, there is an inventory of spare parts, and funding is budgeted for
       additional inventory of proprietary spare parts. Funding for spare parts for future years is
       also included in NAREL's projected long-term RadNet budget. This is based upon repair
       rates to date coupled with aging of the monitors. Additionally, NAREL is pursuing the
       required funding to have the repair contractor investigate lower cost/higher availability
       spare parts that can replace the proprietary spare parts.

Recommendation 3b: Direct that NAREL improve planning and management for RadNet to
include, at a minimum: Implement measures to assure that operators are available.

       Response: EPA concurs with the importance of maximizing operator availability and
       will explore measures by April 1, 2012. However, EPA cannot assign volunteer operators
       or enforce availability of volunteer operators. Instead, EPA seeks volunteers, without
       compensation, for their time and effort. RadNet personnel work closely with their
       partners, particularly the EPA regions, to recruit volunteer operators. When a suitable
       volunteer operator is identified, EPA also requests a backup volunteer who works with
       the primary operator to maximize operator availability. Most locations have a backup



12-P-0417                                                                                        35
      operator identified and fully trained in all aspects of monitor operations. Once EPA finds
      an operator, the RadNet volunteer coordinator provides information to them routinely and
      is in frequent contact by phone. EPA also provides recognition, such as letters of
      appreciation to their supervisors, for their service in an effort to maintain a good
      relationship with our volunteers. The response to recommendation 2d contains provisions
      for reporting to senior EPA management when operators are unavailable for an extended
      period of time.

Recommendation 4: Modify existing and require follow-on RadNet contracts to include
incentives/disincentives and a requirement for Monthly Performance Reviews (MPRs).

      Response: EPA concurs with the draft report findings pertaining to EP-W-07-076 for
      Fixed Air Monitoring Stations. As this contract ends on March 31, 2012 (Delivery Order
      3), there is no meaningful performance period remaining against which to apply the
      recommendation under the existing contract.

      EPA also concurs with the draft report findings pertaining to EP-D-08-068 for repair and
      maintenance services. However this contract has expired, and follow-on contract EP-D-
      12-003, awarded on December 12, 2011, for RadNet Air Maintenance, includes detailed
      performance metrics and provides for a deduction in the invoiced amount for failure to
      meet those targets. Contract EP-D-12-003 also contains detailed invoice reporting
      requirements which duplicate the information included in an MPR, thereby satisfying the
      recommendation.

      With respect to contract EP-D-10-0085, again the EPA concurs with draft report
      findings. The follow-on contract is currently in the planning stages for award prior to the
      end of FY 2012. The resultant contract will include appropriate incentives, quality control
      requirements, and reporting requirements consistent with this recommendation.

Recommendation 5: Require the CO and COR to formally evaluate RadNet contractors’
performance on an annual basis and enter information into PPIRS through CPARS.

      Response: The EPA will track and report timely completion of contractor performance
      evaluations under a Balanced Scorecard Internal Business Performance Measure. This
      will require 100% of contracts eligible to be entered into CPARS during the fiscal year,
      and a target of not less than 90% of past performance evaluations to be accomplished in
      CPARS within timeframes required in the Federal Acquisition Regulation (FAR).
      Accordingly, new and/or ongoing contracts will receive priority for completing past
      performance reporting over expired contracts, although contractor performance
      evaluations will be brought up to date as applicable.

Recommendation 6: Determine whether domestic contract options are available for crucial
repair parts that are identified as only being available from a foreign subcontractor.




12-P-0417                                                                                     36
       Response: The EPA is conducting additional market research in accordance with FAR
       Part 10 to identify potential domestic sources prior to the re-compete of the spare parts
       contract. This contract is anticipated to be awarded prior to the end of FY 2012.

Recommendation 7: Review the information in MATS for OIG Report No. 09-P-0087 and
ensure it is accurate and current.

   Response: OIG Report No. 09-P-0087 contained findings and recommendations on several
   OAM contracts/orders. Below is the status on those past performance reporting requirements
   identified in MATS, as well as the RadNet delivery schedule.

           Past performance evaluations for EP-W-05-012 were finalized in the system on
            1/30/2009.
           Past performance evaluations for 2008 and 2009 for Delivery Order 2 under EP-W-
            07-076 were finalized in the system on 1/30/2009.
           The 2010 past performance evaluation for Delivery Order 2 under EP-W-07-076 was
            finalized on 2/3/2012.
           The past performance evaluation for Delivery Order 3 under EP-W-07-076 will be
            entered in April 2012 when the order has ended.
           The expected completion date of installation or receipt of monitors is June 2012.

Recommendation 8: Track the installation of the RadNet monitors against the revised schedule
and use the contract requirements in recommendations 4 and 5 to hold the contractor
accountable.

       Response: EPA concurs and the COR is working with the CO to enforce the terms and
       conditions of the contract including receipt of consideration for late deliveries.




12-P-0417                                                                                          37
            Comments on Text of Draft Report other than the Recommendations


Pg. 3, Par. 2 and Table 1

The sentence just prior to Table 1 states that the contract for spare parts was awarded to the same
contractor as for purchasing fixed monitors. While this is accurate, the EPA believes it is
important to note that this was done for proprietary spare parts only, since there is no other
known option. Currently, the proprietary parts are required for proper operation of the monitor.
The EPA suggests the sentence read, “The contracts for fixed air monitoring stations and spare
parts were awarded to the same contractor due to the proprietary nature of those spare parts.”

In Table 1, the total contract obligations under RadNet contract EP-D-10-085 for spare parts
should be $1,405,913.29, in lieu of $8,517,587.00 as follows:

                         Delivery
                Contract Order            Date                  Amount
                                          September 21,
        EP-D-10-085         0001          2010                 $279,415.29
        EP-D-10-085         0002          March 9, 2011        $127,495.00
        EP-D-10-085         0003          March 19, 2011       $503,619.00
        EP-D-10-085         0004          June 3, 2011         $495,384.00
                                                               $1,405,913.29

Pg. 3, Last Par.

The second sentence says that the EPA increased sampling frequency following the Japanese
nuclear incidents. For clarification, the EPA suggests that the sentence be revised to read, “In
response to the Japan nuclear incident, the EPA increased sampling frequency for the milk and
drinking water networks and increased analysis frequency for all networks to detect and measure
radiation levels, and inform the public of any changes in those levels.”

Pg. 7, Par. 1

Since most of the late filter changes cited in this paragraph occurred while monitors were
inoperable, EPA suggests that this fact be noted in the paragraph.

Moreover, for an operating RadNet real-time monitor, reduced frequency of filter changes does
not adversely affect either the hourly gamma data or their availability– nor does it adversely
affect the gamma data obtained from laboratory analysis.

One of the documents cited as containing filter change frequency is the 2008 RadNet Quality
Assurance Manual (QAM). To clarify, this QAM does not describe operations or requirements of
the RadNet real-time monitors that are the subject of this report; Section 5.3.4.1 of the QAM
notes that the QAPP (for RadNet real-time monitors) is the applicable quality document for
routine operations, not the QAM: “5.3.4.1 The RadNet air particulate monitoring program is


12-P-0417                                                                                        38
currently undergoing an expansion and upgrade to include near real-time gamma monitors. This
long-term project of installing additional monitors began in 2006 and will not near completion
until 2009. Please refer to the NAREL Quality Assurance Project Plan for Expansion of the
RadNet Fixed Station Air Monitoring System to Include Near Real-Time Gamma Monitoring
(RadNet/QAPP-1) for information. This manual [QAM] addresses all other aspects of the
RadNet air monitoring program.” EPA suggests that this QAM reference be deleted as a
document associated with these monitors.

Finally, for clarification, the twice weekly filter change references in the QAPP are intended to
provide consistency in throughput at NAREL’s analytical laboratory, not as operational
requirements.

As noted in the QAPP in sections 2.0 (page 14) and 7.0 (page 25), there is a distinct difference
between the RadNet real-time and RadNet legacy (described in the QAM) monitors and the use
of their filters. The filters from the RadNet real-time monitors actually measure radiation emitted
from the filters themselves, and the monitors report the results continuously. In contrast, the
filters from RadNet legacy monitors are the only way in which sampling/data can be collected
from them. While filters from both types of monitors are sent to the analytical laboratory for
analysis, the frequency of filter change for the RadNet real-time monitor does not affect the
quality of the results from either the real-time data (from the filters) or the laboratory analysis of
the filters.

       Suggested Revision: Pg. 7, Par. 1

       Broken RadNet monitors and resulting late filter changes may impair this critical infrastructure asset. On
       March 11, 2011, at the time of the Japan nuclear incident emergency, 25 of the 124 installed RadNet
       monitors, or 20 percent, were out of service for an average of 130 days. In addition, 6 of the 12 RadNet
       monitors we sampled (50 percent) had gone over 8 weeks without a filter change, and 2 had gone
       unchanged for over 300 days because these monitors were broken. Unless EPA grants an extension, the
       repair services contract requires a service contractor to fix broken monitors within 14 days of EPA’s
       notification that a monitor is out of service. The EPA QAPP refers to operators changing filters on fixed
       RadNet real-time monitors twice a week. Because EPA did not manage RadNet as a high-priority program
       this resulted in parts shortages, insufficient contract oversight, and contributed to the extensive delay in
       fixing broken monitors. In addition, broken RadNet real-time monitors and relaxed quality controls
       contributed to the filters not being changed timely. Out-of-service monitors and unchanged filters may
       reduce the availability and quality of critical data. As a result, EPA may not have sufficient data to
       determine levels of airborne radioactivity and the associated threat to public health and the environment

EPA recognizes the expressed concern about RadNet station operability, and we have taken steps
to address the issue more completely; however, the RadNet system was able to provide sufficient
data to determine levels of airborne radioactivity during the weeks after the Fukushima nuclear
power plant incident. EPA worked very closely with the interagency scientific and public health
communities during the Fukushima response to properly characterize our findings and in the
development of our public messages.

Pg. 7, Par. 2 and Par. 3

As another point of clarification, filter changes for RadNet monitors are requested at a rate of
twice per week for consistency with the legacy air monitoring program and for NAREL’s


12-P-0417                                                                                                        39
analytical laboratory work load planning purposes. As previously stated, the referenced QAM is
not applicable to the RadNet real-time monitoring network. Twice weekly filter changes are not
required for RadNet real-time monitors because changing filters less than twice weekly does not
adversely affect data quality or availability.

EPA also notes again that the spare parts contract is with the same contractor which makes the
monitor. This is solely for procuring proprietary parts that are not available through other
vendors.

EPA suggests minor wording changes to clarify these points in the following paragraphs in
redline-strikeout format.

       Suggested Revision: Pg. 7, Par. 2

       EPA included terms and conditions in the RadNet repair and maintenance services contract to define the
       period of time for repair., and EPA established quality control standards for frequency of filter changes. In
       May 2008, EPA awarded a RadNet repair and maintenance service contract that requires the contractor to
       fix broken monitors within 14 days of being notified by the COR. EPA may permit an extension of this 14-
       day period for a specific repair for reasons including unavailability of government-furnished equipment,
       operator unavailability, and physical disruption of the site. EPA acquires the GFP from the contractor that
       was awarded through the proprietary spare parts contract.

       Suggested Revision: Pg. 7, Par. 3

       For laboratory workload planning, EPA’s QAM and QAPP estimates that, under routine circumstances,
       RadNet air station operators collect air particulate filters twice a week and mail the filters via the U.S.
       Postal Service to NAREL for analysis. When elevated levels of radioactivity are anticipated or known to
       exist, EPA may request RadNet station operators to increase the sampling frequency and use priority
       shipping.

Pg. 9, Par. 1

The first paragraph on page 9 contains the sentences “EPA did not have the required parts to
provide to the repair contractor, and would not for an extended period of time. Therefore, EPA
did not notify the contractor that these monitors were in need of repair.” EPA agrees with these
sentences, and suggests that similar sentences be included in the last paragraph on page 9 for
completeness to indicate why the COR took 120 to 421 days to notify the repair contractor.

Pg. 9, Par. 2

In the second paragraph on page 9, the phrase “had not assigned operators for two monitors” is
used. Since EPA cannot assign operators, we suggest that the phrase “had not been able to recruit
replacement volunteer operators” be used instead.

Pg. 10, Par. 1

EPA requests the first sentence on page 10 be revised to indicate that some repair requests had
been made to the service contractor prior to the earthquake, and that the priority repairs were


12-P-0417                                                                                                            40
made possible only by “cannibalizing” monitors in the process of being constructed. EPA
suggests the first paragraph on page 10 be changed to read (changes highlighted in red):

       Suggested Revision: Pg. 10, Par. 1
       “Eighteen of the 25 out-of-service monitors received EPA’s priority attention only after the Japan nuclear
       incident. Although 7 out-of-service monitors had been scheduled for repair prior to the Japan incident, the
       remaining 18 out-of-service monitors received EPA's priority attention only after the incident The priority
       attention consisted of cannibalizing monitors under construction for their parts which were used to repair
       broken monitors. By April 8, 2011, the service contractor had completed repairs on all monitors (figure 4).”

Pg. 11, Par. 2

Since the QAM is not an applicable reference for the RadNet real time monitors, EPA suggests
removing references to it in the first sentence of this paragraph and the preceding bullets. Also,
the context of the QAPP section referenced (laboratory analytical scheduling) should be noted in
this sentence. EPA suggests the sentence read “The RadNet QAPP estimates twice-a-week filter
changes for laboratory analytical scheduling purposes."

Pg. 11, Last Par

In the last paragraph on page 11, EPA recommends removing the statement that there is a
requirement to change filters twice per week. Since changing filters less frequently than twice
per week does not affect hourly gamma data quality or availability or laboratory analysis for
gamma radiation, this does not adversely affect data completeness and does not potentially
impair RadNet’s ability to protect public health. EPA suggests the last paragraph on page 11 read
as follows (changes highlighted in red).

       Suggested Revision: Pg. 11, Par. 2

       Further, NAREL gave operators permission to wait up to 8 days between filter changes, despite the
       requirement to change the filters initial provisional request of twice a week in the QAM and QAPP. Some
       operators requested and NAREL gave permission to change filters once a week. Failure to follow RadNet
       quality assurance requirements may adversely affect data completeness and potentially impairs RadNet’s
       ability to protect human health

Pg. 12, Par. 2

The second paragraph of page 12 is correct. For clarification however, EPA requests that
language be added to clarify that, even though there was not a spare parts contract in place, EPA
was purchasing proprietary spare parts from the vendor using individual purchase orders. EPA
suggests the following language be added to the end of this paragraph to reflect this: “Prior to
award of the Spare Parts Contract, multiple stand-alone purchase orders totaling over $200,000
were placed with the manufacturer for proprietary parts not available from other vendors. These
various orders included computers (LPU's), detector assemblies and other components
subsequently included in the Spare Parts contract. The parts identified during these purchases
provided input for development of the subsequent Spare Parts Contract.”




12-P-0417                                                                                                       41
Pg. 16, Par. 1 and Table 5

EPA suggests the following sentence be added as the second sentence to the first paragraph in
this section on page 16: “Just prior to release of our draft report to OAR and OAM, EP-D-12-
003 was awarded on December 12, 2011 for RadNet Air Monitor Maintenance to Environmental
Dimensions, Inc. This contract replaced EP-D-08-068 and does include disincentives for subpar
performance as follows: A five (5) percent reduction on the invoiced labor amount for every one
(1) percent slippage from the ninety-five (95) percent performance level.” EPA also requests that
Table 5 be updated to show this disincentive as a Yes.

Pg. 17 (Planned Disincentives Not Included in Spare Parts Contract)

EPA offers the following text to provide additional information for this section:

The procuring CO, Rodney-Daryl Jones was interviewed by Marcia Hirt-Reigeluth, OIG/USEPA
on May 23, 2011 and the only discounts mentioned were those dealing with volume discounts
included on the parts schedule. The Procurement Initiation Notice (PIN) – Spare Parts
Acquisition for RadNet Fixed Monitors contained a parts schedule which identified the parts and
estimated quantities. A SOW was not provided with the PIN, this being a commodity acquisition.
The program office did not provide a SOW or any document containing disincentives.

A new contract will be established prior to the end of FY 2012 for RadNet Fixed Monitor Spare
Parts addressing incentives/disincentives, monthly progress reports and current parts forecast
incorporating historical monitor failure data, which was previously not available. The current
contract EP-D-10-085 was established with a five year estimate of $1,369,482.00.

Pg. 20, Par. 1

In the first paragraph on page 20, EPA requests that the second sentence be changed to include
that the contract is now awarded rather than being a future contract. EPA suggests the sentence
read: “The September 2011 version of the SOW for the RadNet service contract awarded in
December 2011 contains language to address the proprietary issue.”

Pg. 20, Next to Last Par.

EPA notes that the new spare parts contract will contain requirements for MPRs.

Pg. 20, Last Par.

EPA notes that the RadNet air monitor maintenance contract, EP-D-08-068 provided more than
adequate reporting through the requirements contained in the SOW and detailed invoicing
requirements. A monthly report of the repairs would only be a compilation of the previously
submitted individual reports and would have added no additional value.

      EP-D-08-068 SOW Task 1.6



12-P-0417                                                                                         42
Within 7 days of completing on-site maintenance and repair of a monitor, the Contractor shall
provide a written report to the COR describing; date of on-site service request; date of on-site
service performance; name of service technician performing on-site maintenance and repair;
specific monitor deficiencies reported to the Contractor; specific monitor deficiencies
encountered by the Contractor; steps and procedures performed to return the monitor to fully
functional and calibrated condition; itemization and cost of parts required to return the monitor to
a fully functional and calibrated condition; itemization of billable hours related to the on-site
maintenance and repair.

Pg. 28, Table

The table entry for compensation received for Modification 4 of delivery order 1 is incorrect.
Two MABs were received, not LPUs.




12-P-0417                                                                                        43
                                                                            Appendix E

                                   Distribution
Office of the Administrator
Assistant Administrator for Air and Radiation
Assistant Administrator for Administration and Resources Management
Acting Director, National Air and Radiation Environmental Laboratory
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Administration and Resources Management




12-P-0417                                                                           44
